TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The Strategic Improvement Themes in the
                   Taxpayer Assistance Blueprint Phase I
                 Report Appear to Be Sound; However, There
                  Were Some Inaccurate Data in the Report



                                           May 18, 2007

                              Reference Number: 2007-40-078




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 May 18, 2007


 MEMORANDUM FOR COMMISSIONER, INTERNAL REVENUE SERVICE


 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report –The Strategic Improvement Themes in the
                              Taxpayer Assistance Blueprint Phase I Report Appear to Be Sound;
                              However, There Were Some Inaccurate Data in the Report
                              (Audit # 200740012)

 This report presents the results of our review to assess the accuracy and reliability of the data
 used to develop the Taxpayer Assistance Blueprint (TAB) Phase I report.

 Impact on the Taxpayer
 In July 2005, Congress issued a report requesting that the Internal Revenue Service (IRS)
 develop a 5-year plan including an outline of which services the IRS should provide and how it
 will improve services for taxpayers. The conclusions and strategic improvement themes outlined
 in the TAB Phase I report were valid; however, not all information included in the Phase I report
 was accurate and/or consistent. As the IRS moves forward with its 5-year service delivery plan,
 inaccuracies and/or inconsistencies will put the plan at risk of improperly aligning service
 content, delivery, and resources with taxpayer and partner expectations.

 Synopsis
 The focus of the TAB initiative is on services that support the needs of individual filers who file
 or should file Form 1040 series tax returns.1 The IRS indicates the initiative will address the


 1
  Form 1040 series tax returns include any IRS tax forms that begin with “1040” such as U.S. Individual Income Tax
 Return (Form 1040), U.S. Individual Income Tax Return (Form 1040-A), and Income Tax Return for Single and
 Joint Filers With No Dependents (Form 1040EZ).
                The Strategic Improvement Themes in the Taxpayer Assistance
                 Blueprint Phase I Report Appear to Be Sound; However, There
                           Were Some Inaccurate Data in the Report


challenges of effectively and efficiently aligning service content, delivery, and resources with
taxpayer and partner expectations.
To satisfy the report submission date of April 14, 2006, the IRS designed the TAB as a
two-phased process. The TAB Phase I report identified strategic improvement themes by
researching IRS service relative to taxpayers’ needs and preferences. The TAB Phase II report
will validate the strategic improvement themes through further research of taxpayers’ service
preferences and develop the 5-year plan for service delivery.
The majority of the information reviewed was accurate. Information found to be inaccurate and
inconsistent did not affect the IRS’ strategic improvement themes. Moreover, the five strategic
improvement themes are common to organizations that aspire to deliver successful customer
service.
In the TAB Phase I report, the IRS cited 173 data
sources, which included surveys, studies, analyses of
Form 1040 series tax return data, and discussions with            In general, the TAB Phase I
                                                               report was well documented and
internal and external stakeholders. The documentation            accurate; however, there were
for the data sources was well organized and easily                 some inconsistencies and
accessible. A sample of 56 (27 included in the body of          inaccuracies which we brought
the report and 29 listed in the Reference Appendix) of            to management’s attention.
the 173 data sources showed documentation was
adequately maintained for all 56 data sources.
Ninety-five percent (55 of 58) of the statements reviewed (29 from the report’s Reference
Appendix and 29 statements sampled from the report text) were found to be accurate. However,
the types of problems we found with the compilation of some of the data could adversely affect
IRS management decisions. For example, we found inaccuracies in the report related to changes
in Taxpayer Assistance Center visits and the number of telephone calls answered. In addition,
the IRS did not ensure consistency between income and generational analyses and conclusions.
The inconsistencies relating to income and generational segmentation do not impact the resulting
strategic improvement themes outlined in the Phase I report.
If these inconsistencies exist in the Phase II report, the risk increases that the IRS will draw
inaccurate conclusions based on erroneous data. We are unable to determine the impact the
inconsistencies may have on results outlined in the TAB Phase II report because it was not
available for review. The IRS would not provide us with a copy of the report before it was
officially issued. The TAB Phase II report was issued the week of April 9, 2007, after
completion of this review, and we have now begun our review to evaluate it.




                                                                                                   2
                The Strategic Improvement Themes in the Taxpayer Assistance
                 Blueprint Phase I Report Appear to Be Sound; However, There
                           Were Some Inaccurate Data in the Report


The inaccuracies and inconsistencies resulted primarily from the IRS not having an effective
process to ensure all statements in the TAB Phase I report correctly reflected the results of its
research and data analyses. We shared our results with management throughout the course of
our review. They recognize the need to improve their quality assurance process. Management
                                        officials stated that actions have been taken to improve the
                                        process for the validation of information included in the
    Management stated they have         TAB Phase II report. This process includes an indepth
      improved the process for          review to locate and verify the accuracy of all footnoted
     validating information in the      citations, reference documents, and data points contained
          TAB Phase II report
                                        in all charts and tables in the report. Verifications were
                                        also performed to ensure the accuracy of statements and
representations included in the report. Therefore, we are not making recommendations at this
time but will include testing of the quality review process in our review of the TAB Phase II
report.

Response
IRS management indicated that prior to the completion of this report, a thorough quality review
process was developed and implemented for the TAB Phase II. Experienced analysts validated
information in the TAB Phase II report, including all citations, reference documents, and data
presented in the report. This process was thoroughly documented, and the IRS believes the
result is an accurate and well-documented TAB Phase II report. Management’s complete
response to the draft report is included as Appendix V.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                   3
                     The Strategic Improvement Themes in the Taxpayer Assistance
                     Blueprint Phase I Report Appear to Be Sound; However, There
                                Were Some Inaccurate Data in the Report




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Taxpayer Assistance Blueprint Phase I Report Was Well
          Documented, but Some Information Included in the Report
          Was Not Accurate or Consistent...................................................................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Strategic Improvement Themes and Associated
          Questions to Be Addressed in the Taxpayer Assistance Blueprint
          Phase II Report..............................................................................................Page 15
          Appendix V – Management’s Response to the Draft Report .......................Page 17
      The Strategic Improvement Themes in the Taxpayer Assistance
      Blueprint Phase I Report Appear to Be Sound; However, There
                 Were Some Inaccurate Data in the Report




                     Abbreviations

IRS            Internal Revenue Service
TAB            Taxpayer Assistance Blueprint
                   The Strategic Improvement Themes in the Taxpayer Assistance
                   Blueprint Phase I Report Appear to Be Sound; However, There
                              Were Some Inaccurate Data in the Report




                                             Background

In May 2005, the Internal Revenue Service (IRS) announced plans to close a portion of its
Taxpayer Assistance Centers1 as part of the agency’s
continuing efforts to create efficiencies, modernize
operations, and reduce costs while maintaining its
commitment to taxpayer service. Congress expressed
concern about the proposed taxpayer service reductions
due to the IRS’ inability to explain the potential impact of
these changes on taxpayers. Congress was also concerned
that the proposed service cuts lacked specificity and the
IRS had not developed concrete plans to provide adequate
alternative services that would replace the proposed
service cuts. Finally, Congress questioned the IRS’
estimated cost savings from reducing some of its services.
In July 2005, Congress issued a report requesting that the
IRS develop a 5-year plan for taxpayer service activities2
and in November 2005 requested the IRS report to the
House and Senate subcommittees by April 14, 2006. The
plan was to include long-term goals that are strategic and
quantitative and that balance enforcement and service.3
The Senate Committee Report stated the plan should outline the services the IRS should provide
to improve service to taxpayers. The plan was also to detail how the IRS plans to meet the
service needs on a geographic basis and address how the plan would improve taxpayer service
based on reliable data on taxpayer service needs. The plan was to be developed with the IRS
Oversight Board4 and the National Taxpayer Advocate.


1
  Taxpayer Assistance Centers are walk-in offices that assist customers by interpreting tax laws and regulations,
preparing certain individual tax returns, resolving inquiries on taxpayer accounts, accepting payments, and providing
various other services designed to minimize the burden on taxpayers in satisfying their tax obligations.
2
  United States Congress, Senate Report 109-109. Transportation, Treasury, The Judiciary, Housing and Urban
Development, and Related Agencies Appropriations Bill, 2006: Internal Revenue Service, Processing, Assistance
and Management, Committee Recommendation, July 26, 2005.
3
  United States Congress, Conference Report 109-307. Joint Explanatory Statement of the Committee of
Conference: Internal Revenue Service, Processing Assistance, and Management (Including Rescission of Funds),
November 14, 2005.
4
  A nine-member independent body charged with overseeing the IRS in its administration, management, conduct,
direction, and supervision of the execution and application of the internal revenue laws and to provide experience,
independence, and stability to the IRS so that it may move forward in a cogent, focused direction.
                                                                                                            Page 1
                  The Strategic Improvement Themes in the Taxpayer Assistance
                  Blueprint Phase I Report Appear to Be Sound; However, There
                             Were Some Inaccurate Data in the Report



The focus of the Taxpayer Assistance Blueprint (TAB) initiative is on services that support the
needs of individual filers who file or should file Form 1040 series tax returns.5 The IRS indicates
the initiative will address the challenges of effectively and efficiently aligning service content,
delivery, and resources with taxpayer and partner6 expectations.
To satisfy the report submission date of April 14, 2006, the IRS designed the TAB as a
two-phased process. The TAB Phase I report identified strategic improvement themes by
researching IRS service relative to taxpayers’ needs and preferences. The TAB Phase II report
will validate those themes through further research of taxpayers’ service preferences and will
develop the 5-year plan for service delivery. The 2006 TAB Phase I report, issued
April 24, 2006, presented five strategic improvement themes. Figure 1 list these themes and
Appendix IV provides details of each theme.
                        Figure 1: TAB Strategic Improvement Themes
                                   Strategic Improvement Themes

     1. Improve and expand education and awareness activities.
     2. Optimize the use of partner services.
     3. Elevate self-service options to meet taxpayer expectations.
     4. Improve and expand training and support tools to enhance assisted services.
     5. Develop short-term performance and long-term outcome goals and metrics.
    Source: TAB Phase I report.

The themes were based upon:
•   Current baseline of taxpayer services.
•   Preliminary understanding of taxpayers’ needs and preferences based on primary research
    (collected through surveys, focus groups, and interviews with stakeholders, employees, and
    partners and secondary research gathered through studies, research reports, and literature
    reviews)
•   Targeted research and analyses of customer insights from external organizations.
TAB Phase II will build on the strategic improvement themes and will produce a 5-year plan for
preferred service delivery to individual taxpayers within available resources. The themes will be
refined and validated in the TAB Phase II. The resulting 5-year plan will describe the evolution

5
  Form 1040 series tax returns include any IRS tax forms that begin with “1040” such as U.S. Individual Income Tax
Return (Form 1040), U.S. Individual Income Tax Return (Form 1040-A), and Income Tax Return for Single and
Joint Filers With No Dependents (Form 1040EZ).
6
  Partners encompass all service providers including community-based stakeholders, practitioners, commercial
preparers, and software vendors.
                                                                                                          Page 2
               The Strategic Improvement Themes in the Taxpayer Assistance
               Blueprint Phase I Report Appear to Be Sound; However, There
                          Were Some Inaccurate Data in the Report



of taxpayer services over the next 5 years, with specific and measurable operational goals. The
IRS originally planned to deliver the TAB Phase II report to Congress in December 2006.
The IRS would not provide the Treasury Inspector General for Tax Administration with a copy
of the report before it was officially issued. The TAB Phase II report was issued the week of
April 9, 2007, after completion of this review, and we have now begun our review to evaluate it.
This review was performed at the IRS Wage and Investment Division, Customer Assistance,
Relationships, and Education Office and the Strategy and Finance, Research Office located in
Atlanta, Georgia, during the period September 2006 through March 2007. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




                                                                                          Page 3
                    The Strategic Improvement Themes in the Taxpayer Assistance
                    Blueprint Phase I Report Appear to Be Sound; However, There
                               Were Some Inaccurate Data in the Report




                                      Results of Review

The Taxpayer Assistance Blueprint Phase I Report Was Well
Documented, but Some Information Included in the Report Was Not
Accurate or Consistent
The Government Accountability Office stresses7 significant events need clear documentation that
should be readily available for examination. The data used to prepare the TAB Phase I report
was well documented, organized, and maintained. The majority of the information reviewed was
accurate. Information found to be inaccurate and inconsistent did not affect the IRS’ strategic
improvement themes. This is because the five strategic improvement themes are common to
organizations that aspire to deliver successful customer service. Therefore, the erroneous
information was not needed to support the resulting five themes.
IRS officials stated that most of the data developed and used in the Phase I report were for
perspective. They estimate the Phase I report contains only 20 percent of the data used in
developing the TAB Phase II report, which had not been finalized or approved during this
portion of our review. Consequently, we could not evaluate what impact any errors might have
on the Phase II report. We have begun evaluating the TAB Phase II report.
The IRS originally planned to deliver the TAB Phase II report to Congress in December 2006.
IRS officials stated the Senate Finance Committee staff was pleased with the April delivery of
the Phase I report. The staff also stressed they wanted the IRS to take the time necessary to
deliver the Phase II report to ensure the report is what Congress wanted the IRS to deliver.
Although the errors identified did not affect the conclusions of the TAB Phase I report, these
types of problems with the compilation of data could adversely affect IRS management
decisions. As the IRS moves forward with the development of a 5-year service delivery plan,
inaccuracies and/or inconsistencies will put the IRS’ plan at risk of improperly aligning service
content, delivery, and resources with taxpayer and partner expectations.
The IRS maintained the documentation to support data sources cited in the
TAB Phase I report
In the TAB Phase I report, the IRS cited 173 data sources that included surveys, studies, analyses
of Form 1040 series tax return data, and discussions with internal and external stakeholders. The
documentation for the data sources was well organized and easily accessible.


7
    Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1, dated November 1999).
                                                                                                      Page 4
                The Strategic Improvement Themes in the Taxpayer Assistance
                Blueprint Phase I Report Appear to Be Sound; However, There
                           Were Some Inaccurate Data in the Report



A sample of 56 (27 included in the body of the report and 29 listed in the report’s Reference
Appendix) of the 173 data sources showed documentation was adequately maintained for all 56
data sources. We conducted further testing for the 29 data sources listed in the Phase I report’s
Reference Appendix and confirmed the data sources were used to support information in the
report.
Some information in the TAB Phase I report was inaccurate or inconsistent
Ninety-five percent (55 of 58) of the statements reviewed (29 from the report’s Reference
Appendix and 29 statements sampled from the report text) were found to be accurate. However,
some statements were inaccurate and the IRS did not ensure consistency between income and
generational analyses and conclusions. The inaccuracies and inconsistencies were associated
with information detailed in the Current Taxpayer Services, Taxpayer Understanding, and
Leading Practices sections of the TAB Phase I report.
•   The Current Taxpayer Services section provides an overview of the current taxpayer services
    and a snapshot of volume patterns of key service delivery channels.
•   The Taxpayer Understanding section provides a comprehensive overview of the IRS
    customers’ expectations for services.
•   The Leading Practices section provides customer service practices gathered through research
    and analyses of government agencies, non-profit organizations, and private sector companies.
The information included in these three sections of the TAB Phase I report was provided for
perspective only. Although in most instances the documentation and/or analyses were accurate,
statements in the Phase I report were incorrect. Since business decisions are expected to be made
from the Phase II report, and the report establishes the IRS’ 5-year plan to improve taxpayer
service, it is essential that all statements and conclusions in the Phase I report are accurate.
Inaccurate statements
Three statements were found to be inaccurate, though the conclusions drawn from the statements
were mostly accurate.
•   The report states that since Fiscal Year 2003, the number of telephone calls answered has
    decreased by more than 18 million (19 percent) and Taxpayer Assistance Center visits have
    decreased by almost 300 thousand (9 percent). Supporting documentation shows that the
    decrease in the number of telephone calls was more than 20.8 million, a 26 percent decrease,
    and the decrease in Taxpayer Assistance Center visits was more than 1.9 million, a
    22 percent decrease.




                                                                                            Page 5
                    The Strategic Improvement Themes in the Taxpayer Assistance
                    Blueprint Phase I Report Appear to Be Sound; However, There
                               Were Some Inaccurate Data in the Report



•     The report states that the senior8 and baby boomer9 generations comprise approximately
      60 percent of the United States population. Supporting documentation shows 50 percent of
      the United States population in 2000 was seniors and baby boomers and decreases to
      45 percent in 2005.
•     The report states that survey results from the 2005 IRS Oversight Board Taxpayer Attitude
      Survey revealed 78 percent of the taxpayers surveyed were satisfied with the levels of service
      they receive over the telephone. However, the survey question asked respondents how
      important it was that the IRS provides each of the following services to assist taxpayers.
       • A toll-free telephone number to answer your questions.
       • Office locations you can visit where an IRS representative will answer your questions.
       • A web site to provide you with information.
       • The ability to e-mail your questions directly to the IRS.
       Seventy-eight percent of the respondents indicated it was very important that a toll-free
       number was provided, not that they were satisfied with the service they received.
Inconsistent use of income and generational segmentation
To better understand the expectations of a broad taxpayer base, the IRS segmented the
population using two differentiating factors – income and age by generations. The IRS stated
that similar to the process used by leading financial organizations, segmenting by income affords
important insights into commonalities and differences across income groupings. Research
indicates that generational segmentation also offers important insights into behaviors,
specifically in four areas the IRS believes remain relatively stable. These four areas are
(1) communication preference; (2) information seeking behavior; (3) attitudes toward
government, commerce, and finance; and (4) technology base. Figure 2 outlines how the IRS
defined the income and generational segmentation.




8
    People born before 1946.
9
    People born from 1946 to 1964
                                                                                              Page 6
                    The Strategic Improvement Themes in the Taxpayer Assistance
                    Blueprint Phase I Report Appear to Be Sound; However, There
                               Were Some Inaccurate Data in the Report



                          Figure 2: Taxpayer Segmentation Framework
                                                                                           Generational
     Income Segments
                                                                                            Segments
     Low Income                                                                              Millennials10
     Adjusted Gross Income11 less than $36,000                                               Ages 0 to 29
     Moderate Income                                                                        Generation X12
     Adjusted Gross Income equal to or greater than $36,000 but less than
                                                                                             Ages 30 to 40
     $62,500
     Moderately High Income                                                                 Baby Boomers
     Adjusted Gross Income equal to or greater than $62,500 but less than
                                                                                             Ages 41 to 60
     $100,000
     High Income                                                                                Seniors
     Adjusted Gross Income equal to and greater than $100,000                               Ages 61 to 116
Source: TAB Phase I report.

The IRS was not consistent in its use of income segmentation. Figure 3 shows the differences
identified in the report between the volume of taxpayers based on the Taxpayer Segmentation
Framework and the volume of taxpayers shown in the graphs. The volume of taxpayers in the
graphs have been overstated for the Moderate Income taxpayers and understated for the
Moderately High Income taxpayers. The IRS indicated the analyses supporting the graphs
included the correct income segmentation. However, the income ranges detailed in the graphs
were mislabeled.




10
   People born 1977 and after.
11
   Income (including wages, interest, capital gains, income from retirement accounts, alimony paid to you) adjusted
downward by specific deductions (including contributions to deductible retirement accounts, alimony paid by you),
but not including standard and itemized deductions.
12
   People born from 1965 to 1976.
                                                                                                             Page 7
                  The Strategic Improvement Themes in the Taxpayer Assistance
                  Blueprint Phase I Report Appear to Be Sound; However, There
                             Were Some Inaccurate Data in the Report



                   Figure 3: Income Segmentation Tax Return Analyses
     Taxpayer Segmentation Framework                                           Graphs
                                          Moderate Income
            $36,000 but less than $62,500                     $36,000 to $65,000
                     24,861,760                                   26,501,757
                                       Moderately High Income
           $62,500 but less than $100,000                     $65,000 to $100,000
                     16,708,575                                   15,070,011
 Source: Treasury Inspector General for Tax Administration analyses of the Graphical Illustrations compared to
the Income Segmentation Framework.

In addition, age ranges used for an analyses conducted to identify preferences based on
generational segmentation were not consistent with those defined by the IRS and its Taxpayer
Segmentation Framework. Specifically, the age ranges used to identify the preference of older
and younger taxpayers categorized Millennials as ages 18 to 29 years, Generation X as ages
30 to 44 years, Baby Boomers as ages 45 to 59 years, and Seniors as ages 60 years and older.
However, the Taxpayer Segmentation Framework classified Millennial as ages 0 to 29 years,
Generation X as ages 30 to 40 years, Baby Boomers as ages 41 to 60 years, and Seniors as
ages 61 to 116 years. As a result, the age segmentations are overstated or understated. For
example, the volume of Generation X taxpayers is overstated by 39 percent, or approximately
10 million taxpayers, and the volume of Baby Boomers is understated by 26 percent, or
approximately 12 million taxpayers.
Figure 4 provides a comparison of the volume of taxpayers when segmenting using age ranges
found in the Taxpayer Segmentation Framework and when segmenting using age ranges used by
the IRS when performing the generational analyses.
                        Figure 4: Generational Segmentation Analyses
  Taxpayer Segmentation                  Volume of                                            Volume of
       Framework                         Taxpayers               IRS Analyses                 Taxpayers
Millennials (Ages 0-29)                  26,314,698                Ages 18-29                  25,658,749
Generation X (Ages 30-40)                26,264,005                Ages 30-44                  36,624,703
Baby Boomers (Ages 41-60)                47,624,089                Ages 45-59                  35,409,477
Seniors (61–116 )                        26,234,391            Ages 60 and older               28,088,305
Source: Treasury Inspector General for Tax Administration analyses of the generational study compared to the
Taxpayer Segmentation Framework.

IRS management stated the inconsistent generational segmentation happened because of the
short time period they had to deliver the Phase I report. The contractor the IRS used to perform
the generational segmentation analyses used an existing panel of individuals to survey. This

                                                                                                         Page 8
                  The Strategic Improvement Themes in the Taxpayer Assistance
                  Blueprint Phase I Report Appear to Be Sound; However, There
                             Were Some Inaccurate Data in the Report



existing panel was not segmented into the same generational segments as in the TAB Phase I
report.
The inconsistencies relating to income and generational segmentation have no impact on the
strategic improvement themes outlined in the TAB Phase I report. However, we are unable to
determine the impact the inconsistent income and age segmentation may have on results outlined
in the TAB Phase II report because it was not available for review. If these inconsistencies exist
in the Phase II report, the risk increases that the IRS will draw inaccurate conclusions based on
erroneous data. We plan to initiate an audit of the TAB Phase II report once it has been issued.
Lack of validation of the information in the report
The inaccuracies and inconsistencies identified resulted primarily from the IRS not having an
effective process to ensure all statements in the TAB Phase I report correctly reflected what was
in the source documents. The IRS stated an extensive quality assurance process was used to
validate the Phase I research. The IRS explained that the review process ensured research
products were continuously subjected to rigorous peer, senior management, and executive
review. However, there was no step in the process to ensure what was written in the report
agreed with the research and data analyses. Without an improved quality assurance process, the
risk increases that decisions the IRS makes on its 5-year plan to improve taxpayer service will be
based on inaccurate data.
The Government Performance and Results Act of 199313 directs Federal Government agencies to
focus on their missions and goals, how to achieve them, and how to improve their structural
organizations and business processes. Performance measures need to be based on program-
related characteristics and performance data and must be sufficiently complete, accurate, and
consistent. Performance data must be used to improve organizational processes, identify
performance gaps, and set improvement goals.
We shared our results with management throughout the course of our review. They recognize
the need to improve their quality assurance process. Management officials stated that actions
have been taken to improve the process for the validation of information included in the Phase II
report. This process includes an indepth review to locate and verify the accuracy of all footnoted
citations, reference documents, and data points contained in all charts and tables in the report.
Verifications were also performed to ensure the accuracy of statements and representations


13
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).




                                                                                                             Page 9
               The Strategic Improvement Themes in the Taxpayer Assistance
               Blueprint Phase I Report Appear to Be Sound; However, There
                          Were Some Inaccurate Data in the Report



included in the report. We are not making recommendations at this time but we will include
testing of the quality review process in our review of the TAB Phase II report.




                                                                                       Page 10
               The Strategic Improvement Themes in the Taxpayer Assistance
               Blueprint Phase I Report Appear to Be Sound; However, There
                          Were Some Inaccurate Data in the Report



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to assess the accuracy and reliability of the data used to develop the
TAB Phase I report. Because we did not have the resources to test all statements and validate all
data in the report, we consulted a statistician to determine the best methodology to use for our
testing. To accomplish this objective, we:
I.     Determined the process followed for developing the Phase I report.
II.    Determined whether the IRS had documentation supporting data sources cited in the TAB
       Phase I report.
       A. Identified 55 data sources cited in the TAB Phase I report.
       B. Based on a statistician’s recommendations, we used a random sample and selected
          27 data sources.
           1. We chose a sample size of approximately 30 data sources and used a random
              number to make the selection. We divided the number of references, 55, by
              30 resulting in the number 1.833. We rounded it to 2.
           2. We used an interval selection by selecting every second source starting with the
              number 2, resulting in a random sample of 27. The final sample ended at number
              54 and because there was no second sample beyond 55, we concluded with a
              sample of 27.
       C. Reviewed the supporting document to ensure the source cited in the report was the
          same as the source provided by the IRS.
III.   Determined whether the data sources cited in the TAB Phase I Reference Appendix were
       used to support information included in the Phase I report and whether the IRS had
       documentation supporting these data sources.
       A. Identified 118 data sources cited in the Reference Appendix.
       B. Based on a statistician’s recommendations, we used a random sample and selected
          29 data sources from the report’s Reference Appendix.
           1. We chose a sample size of approximately 30 data sources and used a random
              number to make the selection. We divided the number of references, 118, by
              30 resulting in the number 3.933. We rounded the number to 4.
           2. We used an interval selection by selecting every 4th reference starting with the

                                                                                          Page 11
              The Strategic Improvement Themes in the Taxpayer Assistance
              Blueprint Phase I Report Appear to Be Sound; However, There
                         Were Some Inaccurate Data in the Report



             number 4, resulting in a random sample of 29. The final sample ended at number
             116 and because there was no fourth sample beyond 118, we concluded with a
             sample of 29.
      C. Once we found support for the statement, we determined whether the support
         contained evidence that supported the report and whether the information cited was
         accurate.
IV.   Determined the accuracy of the statements used in the TAB Phase I report.
      A. Reviewed the Phase I report and identified key assumptions and conclusions cited in
         the report.
      B. Based on a statistician’s recommendations, we used a stratified sample.
         1. We listed all 124 assumptions from the Phase I report, under the headings of
            Taxpayer Understanding and Leading Practice.
         2. We met as a team and determined which assumptions we believed would have the
            most impact on the results.
         3. We determined that 29 statements warranted review and determined whether the
            assumptions could be supported.
      C. Once we found support for the statement, we determined whether the support
         contained evidence that supported the report.




                                                                                      Page 12
              The Strategic Improvement Themes in the Taxpayer Assistance
              Blueprint Phase I Report Appear to Be Sound; However, There
                         Were Some Inaccurate Data in the Report



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Russell P. Martin, Audit Manager
Lena Dietles, Lead Auditor
Roberta Fuller, Auditor
Tracy Harper, Auditor
Kathy Henderson, Auditor
Nelva Usher, Auditor
Kevin O'Gallagher, Information Technology Specialist




                                                                                   Page 13
               The Strategic Improvement Themes in the Taxpayer Assistance
               Blueprint Phase I Report Appear to Be Sound; However, There
                          Were Some Inaccurate Data in the Report



                                                                             Appendix III

                          Report Distribution List

Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 14
               The Strategic Improvement Themes in the Taxpayer Assistance
               Blueprint Phase I Report Appear to Be Sound; However, There
                          Were Some Inaccurate Data in the Report



                                                                                 Appendix IV

         Strategic Improvement Themes and
       Associated Questions to Be Addressed in
  the Taxpayer Assistance Blueprint Phase II Report

1. Improve and expand education awareness activities. Questions to be addressed in
   Phase II include:
   •   Do IRS communications or marketing initiatives reach intended target audiences?
   •   What is taxpayer awareness of IRS services or key messages?
   •   What is the role of communication in guiding selection of service delivery channels?
   •   What is the impact of intermediary or partner interaction on message delivery accuracy
       and consistency?
   •   At what life stage might taxpayers most benefit from specific taxpayer education?
2. Optimize the use of partner services. Questions to be addressed in Phase II include:
   •   Why do taxpayers choose to use partners for service delivery?
   •   What mutual benefits bring the IRS and its partners together?
   •   How are the roles and responsibilities of the IRS and its partners defined, especially
       around accountability and quality control?
   •   What is the impact of effective or ineffective partner service delivery on downstream
       workload and compliance?
   •   How can the IRS best manage the relationship between service and stakeholder capacity?
3. Elevate self-service options to meet taxpayer expectations. Questions to be
   addressed in Phase II include:
   •   What are the key drivers for taxpayer preference for self-assisted versus assisted
       channels?
   •   Are there certain taxpayer segments that cannot or will not use self-assisted channels?
   •   Which factors enhance or inhibit taxpayer migration to self-assisted channels?


                                                                                            Page 15
               The Strategic Improvement Themes in the Taxpayer Assistance
               Blueprint Phase I Report Appear to Be Sound; However, There
                          Were Some Inaccurate Data in the Report



   •   What are taxpayers’ expectations for effective self-service?
4. Improve and expand training and support tools to enhance assisted services.
   Questions to be addressed in Phase II include:
   •   How do employees, partners, and taxpayers define support requirements?
   •   Where are the critical gaps and improvement opportunities?
   •   What is the level of interest for online training and decision tools?
   •   What information tracking systems are required to determine drivers of service demand?
5. Develop short-term performance and long-term outcome goals and metrics.
   Questions to be addressed in Phase II include:
   •   What combination of filing, performance, satisfaction, and efficiency data will establish a
       link between service and compliance?
   •   Which programs and processes should be implemented to systematically capture and
       regularly analyze the voice of the taxpayers and partners?
   •   What are service performance preferences by taxpayer segment and service task?
   •   Which performance measures effectively address taxpayers’ and partners’ needs for
       awareness/education, access to service, and quality of experience?
   •   What is the cost of service delivery by taxpayer segment and channel?
   •   What is the relationship between service cost by channel and service performance by
       channel?




                                                                                          Page 16
   The Strategic Improvement Themes in the Taxpayer Assistance
   Blueprint Phase I Report Appear to Be Sound; However, There
              Were Some Inaccurate Data in the Report



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 17
